WAIVER
SUPREME COURT OF THE UNITED STATES
No.

21-330
Cowan Liebowitz & Latman, P.C. et al.

Amy R. Gurvey
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Cowan, Liebowitz & Latman, PC, and William Borchard, Midge Hyman, Baila Celedonia, and Christopher
Jensen

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:
Date:

9/9/21

(Type or print) Name A. Michael Furman
0 Mr.

0 Mrs.

0 Ms.

Firm

Furman Kornfeld & Brennan LLP

Address

61 Broadway, 26th Floor

City & State

New York, New York

Phone

212-867-4100

0 Miss

Zip 10006
Email mfurman@fkblaw.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover lette-.7-is-reciuired
Amy R. Gurvey,
pro se
cc:
315 Highland Avenue
Upper Montclair, NJ 07043

RFCF VED
SEP 2 0 2021

OFFICE OF TtlE CLERK
SUPREME COURT U.S.

